U.S. Department of Agriculture
 Office of Inspector General
         Audit Report




      FARM SERVICE AGENCY
 LIMITED CALIFORNIA COOPERATIVE
  INSOLVENCY PAYMENT PROGRAM
       TRI VALLEY GROWERS




              Report No.
              03099-4-SF
              August 2002
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL
                                    WASHINGTON, D.C. 20250




DATE:       August 26, 2002

REPLY TO
ATTN OF: 03099-4-SF

SUBJECT: Limited California Cooperative Insolvency Payment Program
         Tri Valley Growers

TO:         James R. Little
            Administrator
            Farm Service Agency

ATTN:       T. Mike McCann
            Director
            Operations Review and Analysis Staff


This report presents the results of our audit of the subject program for crop year 2000.
Your July 18, 2002, response to the draft report, excluding attachments, is included as
Exhibit F of the report. Excerpts from your response have been incorporated into the
relevant sections of the report. Since we received your response to our draft report, the
State office provided us with new information on our allocation of contract production
among one producer and three assignees (growers Nos. 85, 86, 87, and 88). After
considering the information, we agreed to reallocate the production in the final report for
these growers. (See Exhibit D and Finding No. 2.)

We have accepted your management decision for Recommendation No. 3. To achieve
management decision on Recommendations Nos.1 and 5, you will need to provide us with
documentation that the subject growers were billed for the appropriate amounts and
support that the amounts have been entered as receivables on FSA’s accounting records.
To achieve management decision on Recommendations Nos. 2 and 4, you will need to
provide us with the notification instructing the State office to make payments to the subject
growers for the appropriate amounts.              To achieve management decision on
Recommendation No. 6, you will need to provide us with instructions and timeframes for
the State office to complete the corrective action.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementation of
those recommendations for which management decision has not yet been reached.
Please note that the regulation requires a management decision to be reached on
James R. Little                                                                     2


all recommendations within a maximum of 6 months from report issuance. Follow your
internal agency procedures in forwarding final action correspondence to the Office of the
Chief Financial Officer.

We appreciate the cooperation and assistance provided by your staff during our audit.


/s/

RICHARD D. LONG
Assistant Inspector General
 for Audit
                            EXECUTIVE SUMMARY
                           FARM SERVICE AGENCY
                      LIMITED CALIFORNIA COOPERATIVE
                       INSOLVENCY PAYMENT PROGRAM
                            TRI VALLEY GROWERS

                              REPORT NO. 03099-4-SF


                                         In July 2000, the California cooperative Tri
                                         Valley Growers (TVG) became insolvent,
        RESULTS IN BRIEF                 and its grower members suffered significant
                                         losses on tomatoes, pears, peaches, and
            apricots. Congress authorized the Farm Service Agency (FSA) to
            disburse up to $20 million in payments to provide relief to growers
            through the Limited California Cooperative Insolvency Payment Program
            (the program).

              The FSA National Office established timeframes for implementing the
              program, allowing the State office about 6 weeks to process over 400
              applications with limited staff. To facilitate the payments and reduce the
              workload for the State office, the National Office had preprinted tonnage
              and income information on the growers’ applications, which it obtained
              from TVG and other source(s). The growers were responsible to review
              and self-certify their applications. If this information was incorrect, the
              growers were instructed to revise the application and attest to its
              accuracy.

              Of the four crops, we limited our review to peaches because more
              members grew peaches than any other crop. In May 2001, FSA
              disbursed $6.6 million out of the $20 million authorized by legislation to
              248 peach growers. We performed the audit to determine if (1) growers
              were eligible for payments, (2) growers accurately reported tonnage
              and income on their applications, and (3) FSA correctly computed
              payments.

              While we determined that the growers were eligible for payments, we
              found that 114 of 248 growers (46 percent) received incorrect
              payments due to either grower or FSA errors. This resulted in total
              monetary exceptions of $357,617 (see Exhibit A). In completing their
              applications, 63 growers failed to report (1) sales of TVG contract


USDA/OIG-A/03099-4-SF                                                             Page i
             production sold by the California Canning Peach Association (CCPA),
             (2) indemnity payments received, and (3) payments received from
             CCPA for tree removals. In addition, some growers incorrectly
             changed the preprinted information on their applications.

             When asked to explain the inaccuracies, the growers stated that they
             (1) assumed that the preprinted income in the “Payments Received
             from Other Sources” section of the application included all payments
             from CCPA, (2) assumed that the preprinted income in the “Payments
             Received from TVG” section of the application included income from
             CCPA, and (3) relied on other individuals (e.g., banker, bookkeeper,
             etc.) to review their applications for them.

             These explanations did not relieve the growers from their responsibility
             of ensuring that the information on their applications was accurate.
             The growers should have more adequately compared their receipts
             and other documentation to the preprinted application, thereby
             providing the most accurate information to the State office. Since the
             State office processed the applications based on the growers’ self-
             certification, 60 growers were overpaid $283,376 and 3 were underpaid
             $19,461.

             For the FSA errors, we found that the State office incorrectly calculated
             payments for 51 growers by (1) not accurately adjusting excess tonnage
             when calculating the growers’ losses, and (2) using incorrect income
             information. Officials stated they had insufficient time to process the
             number of applications, considering regulatory deadlines and changes
             to eligibility criteria. As a result, 15 growers were overpaid $21,022
             and 36 growers were underpaid $33,758.

             When growers produced tonnage in excess of their contracts, TVG
             purchased the excess through a separate contract and at a higher rate
             than it paid for the original contract tonnage.      Since the excess
             payment was not part of the program, the State office was instructed to
             reduce the growers’ total payments by that amount. We found that the
             State office incorrectly adjusted excess tonnage when calculating the
             losses for 46 growers. Officials were unable to provide an explanation
             but agreed with our conclusions.

             On August 9, 2001, we held a teleconference with FSA National Office
             officials to inform them of the large number of growers who had
             received incorrect payments. We also provided spreadsheets detailing
             our preliminary results so that the agency could take immediate action
             to review payments on the remaining three crops.



USDA/OIG-A/03099-4-SF                                                         Page ii
              In addition, the issues we identified in this report affected other
              programs, resulting in excess payments to the growers. Some
              growers failed to report their total peach production to the Risk
              Management Agency (RMA) when they applied for crop insurance; one
              FSA county office failed to consider TVG production when calculating
              disaster assistance payments. Because the payments issued under
              these programs were unrelated to the TVG insolvency, we will issue
              separate reports to both RMA and FSA.

                                      We recommend that FSA recover
                                      overpayments of $283,376 plus interest
    KEY RECOMMENDATIONS               from the 60 growers, and disburse $53,219
                                      to the 39 growers that were underpaid. FSA
           should also make a determination on whether the $21,022 should be
           collected from the 15 growers who were overpaid due to FSA errors.

              We also recommend that the State office review payments on the
              remaining three crops—tomatoes, apricots, and pears—to determine if
              improper or incorrect payments were made to those growers, and report
              the results to the FSA National Office and OIG.

                                         In its July 18, 2002, written response to the
                                         draft report, the FSA National Office
       AGENCY RESPONSE                   concurred with the report findings and
                                         recommendations.        FSA’s response is
           included in Exhibit F of this report.




USDA/OIG-A/03099-4-SF                                                         Page iii
                                     TABLE OF CONTENTS

EXECUTIVE SUMMARY...................................................................................................... i

INTRODUCTION.............................................................................................................1

FINDINGS AND RECOMMENDATIONS ........................................................................4

CHAPTER 1 – GROWERS FAILED TO REPORT ALL PRODUCTION AND
RELATED INCOME ........................................................................................................4

     FINDING NO. 1 .................................................................................................................. 4
     Recommendation No. 1 ............................................................................................7
     Recommendation No. 2 ............................................................................................8
     Recommendation No. 3 ............................................................................................8

CHAPTER 2 – STATE OFFICE MADE ERRORS WHEN CALCULATING GROWER
PAYMENTS ................................................................................................................ 10

     FINDING NO. 2 ......................................................................................................10
     Recommendation No. 4 ..........................................................................................11
     Recommendation No. 5 ..........................................................................................12
     Recommendation No. 6...........................................................................................12

EXHIBITS

A – SUMMARY OF MONETARY RESULTS.................................................................14
B – ORGANIZATIONS VISITED OR CONTACTED......................................................15
C – GROWER PAYMENTS REPORTED INCORRECTLY ...........................................16
D – FSA MADE ERRORS WHEN CALCULATING PAYMENTS ..................................19
E – GROWER APPLICATION.......................................................................................21
F – FSA WRITTEN RESPONSE TO THE DRAFT REPORT ........................................22




USDA/OIG-A/03099-4-SF                                                                                                      Page iv
                            INTRODUCTION

                                       In July 2000, the California cooperative Tri
                                       Valley Growers (TVG) became insolvent, and
       BACKGROUND                      its grower members suffered significant losses
                                       on tomatoes, pears, peaches, and apricots. To
         provide relief for the growers, the Agriculture, Rural Development, Food and
         Drug Administration, and Related Agencies Appropriations Act,
         2001, authorized the Secretary of Agriculture to disburse up to $20 million in
         payments through the Limited California Cooperative Insolvency Payment
         Program (the program).           While the Commodity Credit Corporation
         administered the program, the Farm Service Agency (FSA) National and
         State offices determined grower eligibility and disbursed payments.
         Payments could not, under the terms of the legislation, exceed 50 percent
         of the growers’ loss.

           TVG at its peak had approximately 500 members who produced more
           than 50 percent of the canned peaches and 10 percent of the canned
           tomato products sold in the United States. The cooperative’s attempts to
           return to profitability were hindered by unfavorable long-term contracts, an
           industry-wide oversupply of tomatoes, and processing plants running
           under capacity.

           Because of the insolvency, TVG was unable to fulfill its contracts with its
           grower members in crop year 2000. Growers received only 60 to 70
           percent of the market price on all their crops. In addition, TVG closed two
           of its tomato-processing plants and processed a reduced amount of its
           members’ fruit crops except for peaches.

           On March 15, 2001, the FSA National Office mailed program applications
           to all members of TVG who had a contract to produce an eligible
           commodity during crop year 2000. The application included preprinted
           tonnage and income information obtained from TVG and CCPA. Growers
           were instructed to verify the preprinted information and return the
           applications to the California State FSA Office by April 6, 2001. The State
           office was responsible for verifying the information and calculating a
           payment factor (31.06515 percent) to allocate the limited funds among the
           growers. FSA then disbursed payments based on the losses reported on
           individual applications.




USDA/OIG-A/03099-4-SF                                                         Page 1
                                  The objectives of our audit were to determine
                                  if (1) growers were eligible for payments,
        OBJECTIVES                (2) growers accurately reported tonnage and
                                  income on their applications, and (3) FSA
         correctly computed payments.

                                         Over 400 TVG growers received program
                                         payments for losses in crop year 2000. Of the
              SCOPE                      four crops covered by the program—
                                         tomatoes, pears, peaches, and apricots—we
            limited our review to peaches because more members grew peaches than
            any other crop. FSA disbursed $6.6 million out of the $20 million
            authorized by legislation to 248 peach growers.

            For crop year 2000, the U.S. Department of Agriculture also offered other
            programs for crop losses. Accordingly, we reviewed indemnity payments
            and crop disaster payments to ensure that TVG growers had not been
            overpaid for their losses.

            Audit fieldwork was performed from May through October 2001 at the
            California State FSA Office in Davis, California; TVG corporate office in
            San Ramon, California; the California Canning Peach Association (CCPA)
            in Sacramento, California; and several FSA county offices. For a
            complete list of audit sites, refer to Exhibit B.

            This audit was performed in accordance with generally accepted
            government auditing standards.

                                        To accomplish our objectives, we performed
                                        the following procedures:
       METHODOLOGY

        •   We interviewed officials at the FSA National Office to obtain application
            instructions, internal memoranda, pertinent regulations, and instructions
            given to the California State FSA Office to implement the program.

        •   At the California State FSA Office, we interviewed officials about the TVG
            contract types, review procedures, FSA’s role in the application process,
            extent of grower losses on all four crops, and whether officials were aware
            of any abuses or program vulnerabilities in the program. We obtained
            FSA spreadsheets to identify all eligible growers receiving applications,
            which summarized their income and resulting losses.




USDA/OIG-A/03099-4-SF                                                         Page 2
        •   We analyzed FSA’s data and prepared spreadsheets to document income
            not reported by growers. We recalculated the “Payments Received from
            TVG” to ensure that the State office limited the amount of payments to the
            contract tonnage.

        •   At the TVG corporate office, we interviewed officials to identify concerns
            they had regarding the contract payments and reviewed member contracts
            to ensure the contracts with TVG were valid. We verified that all applicants
            identified as members on the FSA spreadsheets were present on TVG
            member spreadsheets.

        •   At CCPA, we interviewed officials to identify payments that growers
            received from CCPA and collected documentation on tree removals and
            peach sales.     We verified that payments originating from TVG
            membership orchards were reported under “Payments Received from
            Other Sources” on the application.

        •   At the State and county FSA offices, we interviewed 47 of 248 growers
            concerning discrepancies we noted on their applications.

        •   At the Sutter/Yuba County FSA Office in Yuba City, we reviewed files and
            interviewed officials to determine if the growers were eligible to receive
            Crop Disaster Program payments.

        •   To determine if the growers received payments for the same losses from
            different sources, we analyzed (1) a data base of all growers who received
            indemnity payments for crop year 2000 from the Risk Management
            Agency (RMA) and (2) crop insurance payments from three insurance
            providers.




USDA/OIG-A/03099-4-SF                                                          Page 3
             FINDINGS AND RECOMMENDATIONS

          GROWERS FAILED TO REPORT ALL PRODUCTION
CHAPTER 1 AND RELATED INCOME


                                          Sixty-three of the 248 TVG peach growers
                                          who participated in this program failed to
          FINDING NO. 1                   report production and related income on their
                                          program applications. Specifically, growers
             failed to report (1) sales of TVG contract production sold by California
             Canning Peach Association (CCPA), (2) indemnity payments received,
             and (3) payments received from CCPA for tree removals. In addition,
             some growers incorrectly changed the information preprinted on their
             applications. The growers were generally unable to provide us with
             satisfactory reasons for inaccurately reporting production and income. As a
             result, 60 growers were overpaid $283,376 and 3 growers were underpaid
             $19,461 (see Exhibit C). This represents an error rate of 25 percent.

              Regulations1 require that “the members of TVG requesting payments under
              this part must certify with respect to the accuracy and truthfulness of the
              information provided in their application for payments.” Application
              instructions2 state “‘Payment Received from Other Sources’ means the
              payment [the grower] received from other sources for the production [the
              grower] had under contract with TVG during crop year 2000…”

              To facilitate the payments and reduce the workload for the State office, the
              National Office had preprinted tonnage and income information on the
              growers’ applications (see Exhibit E), which it obtained from TVG and
              CCPA. The growers were responsible to review and self-certify their
              applications. If this information was incorrect, the growers were instructed to
              revise the application and attest to its accuracy.

              We found that 63 of the 248 growers failed to correctly report production
              and income on their applications.          When asked to explain the
              inaccuracies, the growers stated that they (1) assumed that the preprinted
              income in the “Payments Received from Other Sources” section of the
              application included total payments from CCPA, (2) assumed that the

1
 7 CFR 1481.4 (c) dated March 8, 2001.
2
  Instructions for CCC-870, Limited California Cooperative Insolvency Payment Program, dated
March 13, 2001.


USDA/OIG-A/03099-4-SF                                                               Page 4
           preprinted income in the “Payments Received from TVG” section of the
           application included income from CCPA, and (3) relied on other individuals
           (e.g., banker, bookkeeper, etc.) to review their applications for them.

           These explanations did not relieve the growers from their responsibility of
           ensuring that the information on their applications was accurate. The
           growers should have more adequately compared their receipts and other
           documentation to the preprinted information, thereby providing the most
           accurate information to the State office. Because the growers self-
           certified the information was correct, the State office relied on that
           information without verifying its accuracy.

           We found that some growers did not ensure the information on their
           applications was accurate:

           •     Growers Failed to Report Sales of Contract Production as
                “Payments Received from Other Sources.”            Due to the TVG
                bankruptcy, CCPA verbally agreed to purchase a limited amount of
                TVG contract production from its members. This production was
                later sold to other processors, and the growers received direct
                payments from CCPA. We found 40 growers who failed to report
                sales of contract production. For 26 of these growers, the sales
                amounted to $399,992, which resulted in overpayments of
                $124,257. The remaining 14 growers had multiple errors on their
                applications and are discussed in the last section of this finding.

           •    Growers Failed to Report Indemnity Payments as “Payments
                Received from Other Sources.” We obtained an RMA data base of
                all growers who received indemnity payments for crop year 2000 and
                found 16 growers who failed to report the payments. For seven of
                these growers, the payments amounted to $50,231, which resulted in
                overpayments of $15,603. The remaining nine growers had multiple
                errors on their applications and are discussed in the last section of
                this finding.

           •    Growers Failed to Report Tree Removal Payments as “Payments
                Received from Other Sources.” CCPA created a tree removal
                program in response to TVG’s announcement that it would not
                process 30,000 tons of peaches it had contracted to receive. Rather
                than have these peaches produce an oversupply on the market,
                CCPA members voted to remove, or pull, the trees.

                The FSA National Office preprinted tree removal payments under the
                “Payments Received From Other Sources” section on the
                application; however, CCPA erroneously left out three of the

USDA/OIG-A/03099-4-SF                                                        Page 5
               payments during the transfer of information to FSA. Two growers did
               not notice the omission and failed to report $44,800, which resulted
               in overpayments of $13,916. The remaining grower had multiple
               errors on his application and is discussed in the last section of this
               finding.

           •   Growers Incorrectly Changed the Preprinted Information on Their
               Applications. We found that 16 growers incorrectly changed the
               preprinted income on their applications. As a result, eight growers
               were overpaid $11,797 and three growers were underpaid by
               $19,461. The remaining five growers had multiple errors on their
               applications and are discussed in the last section of this finding.

               In a memo dated March 28, 2001, the FSA National Office Acting
               Administrator instructed the State office to “…review and verify the
               corrections members of TVG made to the preprinted information.”
               The State office informed us that it contacted all growers who made
               such corrections. The growers stated that they changed the
               preprinted income to coincide with the payments they received from
               TVG or other sources. The State office accepted their explanations
               without further questioning or without obtaining supporting
               documentation.

               After we interviewed the growers, we determined that these changes
               were incorrect. For example, grower No. 37 reported the net
               payment he received from TVG. Although instructions state that the
               grower should report ‘Payment Received from TVG,’ this was further
               described in the instructions as payment for delivered production,
               which is a gross amount. Therefore, hauling allowances, member
               dues, and other fees were included in the computation of the
               grower’s loss. As a result, the grower received an overpayment of
               $2,033.

               In another case, grower No. 39 overreported payments received
               from TVG. The grower stated he did not know how he arrived at the
               figure but believed he may have included income from crop year
               1999. As a result, the grower was underpaid $75.

           •   Some Applications Contained Multiple Errors. The applications for
               17 growers contained multiple errors (discussed in the previous
               sections) and they received $117,803 in overpayments.        For
               example, grower No. 52 failed to report payments received from
               sales of contract production and indemnity payments. As a result,
               the grower was overpaid $15,264.


USDA/OIG-A/03099-4-SF                                                       Page 6
                 Because of the discrepancies identified above, we concluded that 60
                 growers were overpaid and 3 growers were underpaid. We recommend
                 that FSA recover grower overpayments of $283,376 plus interest since the
                 date of the disbursement and pay $19,461 to growers that were
                 underpaid.

                 Some of these errors could have been identified more timely through
                 FSA’s spot check process. Regulations3 state “all information provided is
                 subject to a spot check and other verification by FSA.” As a practice, the
                 FSA National Office provides instructions on spot check procedures to the
                 State office for new programs through handbook procedures,
                 amendments to the handbook, or notices. Although the National Office
                 sent a memorandum to the State office on processing program
                 applications, the memorandum did not include instructions on spot checks.

                 State office officials inquired about the missing instructions but were told
                 by the National Office to postpone the spot checks because OIG was
                 conducting an audit. However, since the FSA handbook4 states, “OIG
                 functions do not replace FSA-established lines of managerial or
                 operational authority or responsibility,” FSA should have conducted its
                 spot checks of the applications.

                 On August 9, 2001, we held a teleconference with FSA National Office
                 officials to inform them of the large number of growers who had received
                 incorrect payments.      We also provided spreadsheets detailing our
                 preliminary results so that the agency could take immediate action to
                 review payments on the remaining three crops—tomatoes, apricots, and
                 pears.



     RECOMMENDATION NO. 1


                 Instruct the State office to collect $283,376 plus interest since the date of
                 the disbursement from the 60 growers who were overpaid.

                 Agency Response

                 In its July 18, 2002, written response to the draft report, FSA concurred
                 with this finding and recommendation.


3
    7 CFR 1481, section 4(c), dated March 13, 2001.
4
    Handbook 9-AO (rev. 4), amendment 1, par. 4A, dated January 13, 2000.


USDA/OIG-A/03099-4-SF                                                                Page 7
           OIG Position

           We agree with FSA’s corrective action. To achieve management decision,
           the agency will need to provide us with documentation that the 60 growers
           were billed for their overpayments plus interest and support that the
           amounts have been entered as receivables on FSA’s accounting records.
           If final action has occurred, evidence of collection will suffice.



  RECOMMENDATION NO. 2


           Instruct the State office to pay $19,461 to the three growers who were
           underpaid.

           Agency Response

           In its July 18, 2002, written response to the draft report, FSA concurred
           with this finding and recommendation.

           OIG Position

           We agree with FSA’s corrective action. To achieve management decision,
           the agency will need to provide us with a copy of the instructions to the
           State office to pay $19,461 to the three growers.



  RECOMMENDATION NO. 3


           Require the State office to review payments on the remaining three crops—
           tomatoes, apricots, and pears—to determine if improper or incorrect
           payments were made to those growers, and report the results to the FSA
           National Office and OIG.




USDA/OIG-A/03099-4-SF                                                       Page 8
           Agency Response

           In its July 18, 2002, written response to the draft report, FSA concurred
           with this finding and recommendation. FSA stated that as a result of spot
           checks on payments to 10 percent of the TVG tomato growers, the State
           office collected $28,483 in overpayments plus interest and found that one
           grower was underpaid $12,222. Also, FSA officials stated that they are in
           the process of reviewing the TVG apricot and pear growers and anticipate
           reporting the results of this review to OIG by November 22, 2002.

           OIG Position

           We accept FSA’s management decision on this recommendation.




USDA/OIG-A/03099-4-SF                                                       Page 9
                     STATE OFFICE MADE ERRORS WHEN CALCULATING
CHAPTER 2
                     GROWER PAYMENTS

                                            The State office incorrectly calculated program
                                            payments for 51 of 248 growers by (1) not
            FINDING NO. 2                   accurately adjusting excess tonnage when
                                            calculating the growers’ losses, and (2) using
               incorrect income information. Officials stated they had insufficient time to
               process the number of applications, considering regulatory deadlines and
               changes to eligibility criteria. As a result, 15 growers were overpaid
               $21,022 and 36 growers were underpaid $33,758 (see Exhibit D). This
               represents an error rate of 21 percent.

                The FSA National Office established timeframes for implementing the
                program, allowing the State office about 6 weeks to process over 400
                applications with limited staff. We found the State office incorrectly
                calculated payments for 51 of 248 growers. Although officials informed us
                that they conducted a second-party review of the applications, they failed to
                discover the following errors:

                •     State Office Incorrectly Adjusted Excess Tonnage when Calculating
                      the Growers’ Losses. When growers produced tonnage in excess of
                      their contracts, TVG purchased the excess through a separate
                      contract and at a higher rate than it paid for the original contract
                      tonnage. Since the excess payment was not part of the program, the
                      State office was instructed to reduce the growers’ total payments by
                      the excess amount.

                      We found that the State office failed to correctly adjust the total
                      payment for 46 of 49 growers who produced excess tonnage. Officials
                      were unable to provide an explanation but agreed with our
                      conclusions. As a result, 34 growers were underpaid $23,846 and 12
                      growers were overpaid $14,113.

                •     The State Office Used Incorrect Income Information. Some growers
                      changed their applications to report assignments5 or correct what
                      they believed to be inaccurate information. Although State office
                      officials informed us that they verified these changes, in five cases
                      they misinterpreted what the grower intended or disregarded it
                      altogether. When we verified the information through discussions

5
  An assignment is an agreement in which a grower transfers the right of all or part of a crop to another
grower as payment for labor. Ownership is divided between growers, and payments are distributed to
growers based on the percentage of ownership.


USDA/OIG-A/03099-4-SF                                                                        Page 10
                       with the grower and other evidence, we found the State office
                       incorrectly calculated the income. As a result, we found that two
                       growers were underpaid $9,912 and three growers were overpaid
                       $6,909.

                The State office officials stated they had insufficient time to process the
                applications considering regulatory deadlines and changes to the eligibility
                criteria. Since their second-party review failed to discover the errors
                mentioned above, the State office should strengthen its second-party
                review process on any future programs by requiring a checklist of items to
                verify that a review was conducted.

                On August 9, 2001, we informed the FSA National Office of the large
                number of growers who had received incorrect payments. In accordance
                with the provisions of the finality rule,6 the California State FSA Office sent
                letters on August 14 notifying over 400 growers of discrepancies found in
                selected applications and the possibility of incorrect payments. The
                growers were told that a further review of the applications would continue
                and determinations would be made on a case-by-case basis. However,
                FSA will have to determine whether the 90-day rule is applicable and what
                action should be taken on the $21,022 in overpayments to the 15 growers
                .
                FSA should disburse payments of $33,758 to the 36 growers that were
                underpaid. FSA should also make a determination on whether the
                $21,022 should be collected from the 15 growers who were overpaid.



    RECOMMENDATION NO. 4


                Instruct the State office to pay $33,758 to the 36 growers who were
                underpaid.

                Agency Response

                In its July 18, 2002, written response to the draft report, FSA concurred
                with this finding and recommendation. (Based on subsequent information
                received from the State office concerning growers Nos. 85, 86, 87, and 88,
                OIG decreased the number of growers from 38 to 36.)


6
  The Department of Agriculture Reorganization Act of 1994, Section 281, states that the decisions made
by the State office “…in good faith…shall be final not later than 90 calendar days after the date of filing of
the application for benefits, [and]…no action may be taken…to recover amounts [disbursed in error]…”


USDA/OIG-A/03099-4-SF                                                                             Page 11
           OIG Position

           We agree with FSA’s corrective action. To achieve management decision,
           the agency needs to provide us with a copy of its instruction to the State
           office to pay $33,758 to the 36 growers.



  RECOMMENDATION NO. 5


           Instruct the State office to make a determination whether the 90-day rule
           applies and, if so, to collect $21,022 plus interest since the date of
           disbursement from the 15 growers who were overpaid.

           Agency Response

           In its July 18, 2002, written response to the draft report, FSA concurred
           with this finding and recommendation, but noted, “…because it is unclear
           that these 13 TVG peach growers had reason to know that their payments
           were erroneous, FSA is waiving program interest.” (Based on subsequent
           information received from the State office concerning growers Nos. 85, 86,
           87, and 88, OIG increased the number of growers from 13 to 15.)

           OIG Position

           We generally agree with FSA’s corrective action.              To achieve
           management decision, the agency will need to provide us with
           documentation that the 15 growers were billed for their overpayments and
           support that the amounts have been entered as receivables on FSA’s
           accounting records. If final action has occurred, evidence of collection will
           suffice.



  RECOMMENDATION NO. 6


           Require the State office to strengthen its second-party review process on
           any future programs by requiring a checklist of items to verify that a review
           was conducted.




USDA/OIG-A/03099-4-SF                                                         Page 12
           Agency Response

           In its July 18, 2002, written response to the draft report, FSA concurred
           with this finding and recommendation.

           OIG Position

           We agree with FSA’s corrective action. To achieve management decision,
           the agency needs to provide us with instructions and a timeframe for the
           State office to complete the corrective action.




USDA/OIG-A/03099-4-SF                                                     Page 13
EXHIBIT A – SUMMARY OF MONETARY RESULTS

    RECOMMENDATION
                                          DESCRIPTION                 AMOUNT1              CATEGORY
        NUMBER

                              For 2000, growers failed to report
              1               income received from other sources       $283,376   Questioned Costs –
                              on production.                                      Recovery Recommended
                              The State office incorrectly adjusted
                              excess tonnage when calculating                     Questioned Costs –
              5                                                         $21,022
                              the growers’ losses and used                        Recovery Recommended
                              incorrect income information.

         TOTAL
                                                                       $304,398
     OVERPAYMENTS

                              For 2000, growers overreported
              2               income received from other sources        $19,461   Underpayment – Payment
                              on production.                                      Recommended

                              The State office incorrectly adjusted
                              excess tonnage when calculating                     Underpayment – Payment
              4                                                         $33,758
                              the growers’ losses and used                        Recommended
                              incorrect income information.

        TOTAL
                                                                        $53,219
    UNDERPAYMENTS


    TOTAL MONETARY
                                                                       $357,617
       RESULTS




1
    Each over/underpayment is rounded to the nearest dollar.


USDA/OIG-A/03099-4-SF                                                                                Page 14
EXHIBIT B – ORGANIZATIONS VISITED OR CONTACTED

                ORGANIZATION                               LOCATION


FSA Offices
   California State Office                     Davis, CA
   Stanislaus/Tuolumne County Office           Modesto, CA
   Sutter/Yuba County Office                   Yuba City, CA



RMA Office
   Western Regional Compliance Office          Davis, CA



Grower Cooperative
   Tri Valley Growers Corporate Office         San Ramon, CA



Grower Association
   California Canning Peach Association        Sacramento, CA


Reinsurance Company Offices
   Rural Community Insurance Services          Fresno, CA
   Rain and Hail LLC Insurance Service, Inc.   Fresno, CA
   NAU Country Insurance Company               Woodland, CA




USDA/OIG-A/03099-4-SF                                                 Page 15
                                                                                               Page 1 of 3
EXHIBIT C – GROWER PAYMENTS REPORTED INCORRECTLY

       Payments Payments            Payments      Payments                            Over
                                                                Final   Final
Grower   Rec'd  Rec'd From         Rec'd From    Rec'd From Payment Payment         (Under)       Error
 No.   From TVG TVG Per           Other Sources Other Sources                       Payment       Code
                                                              From FSA Per OIG
        Per FSA    OIG               Per FSA       Per OIG                         to Grower

  A        B            C              D             E           F        G        H=F–G            I

26 Growers Failed to Report Sales of Contract Production
   1     $478,535      $478,535         $64,820      $77,313   $110,527 $106,646       $3,881       1
   2     $269,368      $269,368         $49,188     $142,357   $190,567 $161,624      $28,943       1
   3     $149,602      $149,602              $0      $11,549    $26,414 $22,826        $3,588       1
   4     $123,279      $123,279              $0      $20,873    $27,281 $20,797        $6,484       1
   5      $26,174       $26,174              $0      $18,458    $22,559 $16,825        $5,734       1
   6       $6,586        $6,586         $25,120      $36,950    $26,341 $22,666        $3,675       1
   7      $82,365       $82,365              $0       $6,727     $9,229   $7,139       $2,090       1
   8      $56,777       $56,777              $0       $3,890    $15,658 $14,449        $1,209       1
   9     $113,409      $113,409         $86,307      $89,764    $57,822 $56,748        $1,074       1
  10      $79,948       $79,948              $0      $30,144    $20,765 $11,400        $9,365       1
  11      $44,902       $44,902              $0      $11,654    $31,796 $28,176        $3,620       1
  12      $99,712       $99,712              $0      $30,980    $46,531 $36,907        $9,624       1
  13     $204,236      $204,236         $14,400      $17,614    $35,480 $34,482          $998       1
  14      $60,569       $60,569              $0       $3,005    $12,272 $11,339          $933       1
  15     $181,707      $181,707              $0       $9,015    $36,816 $34,016        $2,800       1
  16      $24,241       $24,241              $0      $19,815    $35,754 $29,598        $6,156       1
  17     $139,557      $139,557              $0      $19,411    $20,777 $14,747        $6,030       1
  18     $184,499      $184,499              $0      $19,805    $69,426 $63,273        $6,153       1
  19      $35,821       $35,821              $0       $4,198    $20,141 $18,837        $1,304       1
  20      $16,548       $16,548              $0       $5,470     $5,210   $3,511       $1,699       1
  21      $10,443       $10,443              $0       $2,366     $9,857   $9,122         $735       1
  22      $31,163       $31,163              $0      $12,744     $9,812   $5,853       $3,959       1
  23      $14,345       $14,345              $0       $2,484     $1,768     $997         $771       1
  24      $64,380       $64,380              $0       $9,601    $52,961 $49,979        $2,982       1
  25      $47,799       $47,799         $41,600      $54,866    $54,671 $50,550        $4,121       1
  26     $206,668      $206,668              $0      $20,374    $32,211 $25,882        $6,329       1
                    Subtotal                                                         $124,257




USDA/OIG-A/03099-4-SF                                                                     Page 16
                                                                                               Page 2 of 3



                          Payments    Payments
       Payments Payments
                         Rec'd From Rec'd From            Final       Final     Over (Under)
Grower   Rec'd    Rec'd                                             Payment                       Error
                            Other       Other           Payment                   Payment
 No.   From TVG From TVG                                                                          Code
                         Sources Per Sources Per        From FSA     Per OIG     to Grower
        Per FSA  Per OIG
                            FSA          OIG
   A        B           C         D           E            F           G         H=F–G              I

7 Growers Failed to Report Indemnity Payments
  27       $58,929     $58,929         $0      $3,077    $103,929    $102,974           $955        5
  28       $10,093     $10,093    $16,577     $18,209      $6,191      $5,684           $507        5
  29       $31,105     $31,105         $0      $8,687     $15,671     $12,972         $2,699        5
  30      $210,309    $210,309         $0     $22,950     $63,579     $56,450         $7,129        5
  31       $10,982     $10,982         $0      $4,263     $10,920      $9,596         $1,324        5
  32        $5,733      $5,733         $0      $1,241      $4,444      $4,058           $386        5
  33       $14,111     $14,111         $0      $8,381      $8,645      $6,042         $2,603        5
                     Subtotal                                                        $15,603


2 Growers Failed to Report Tree Removal Payments
  34        $4,449      $4,449        $0       $5,600      $4,640      $2,901         $1,739        2
  35       $18,737     $18,737        $0      $39,200     $69,746     $57,569        $12,177        2
                     Subtotal                                                        $13,916


11 Growers Incorrectly Changed the Preprinted Information on the Application
  36      $111,307    $111,307   $196,152    $134,471      $5,387     $24,549       ($19,162)       3
  37       $80,631     $87,174    $17,600     $17,600     $31,588     $29,555          $2,033       3
  38      $129,597    $142,200    $65,043     $64,625     $26,393     $22,608          $3,785       3
  39       $23,510     $23,270         $0          $0     $10,231     $10,306           ($75)       3
  40       $70,531     $69,811         $0          $0     $30,693     $30,917          ($224)       3
  41      $336,207    $336,207    $70,559     $70,965     $62,482     $62,356            $126       3
  42       $43,351     $43,351    $15,380     $16,342     $19,900     $19,601            $299       3
  43       $58,655     $62,525         $0          $0      $5,513      $4,311          $1,202       3
  44        $2,218      $2,218    $10,523     $13,784      $1,525        $512          $1,013       3
  45        $6,655      $6,655    $31,568     $41,353      $4,575      $1,535          $3,040       3
  46            $0          $0    $14,796     $15,760     $11,400     $11,101            $299       3
                     Subtotal                                                        ($7,664)




USDA/OIG-A/03099-4-SF                                                                     Page 17
                                                                                                        Page 3 of 3



                                Payments    Payments
           Payments Payments                                                                       Over
                               Rec'd From Rec'd From                    Final         Final
    Grower   Rec'd  Rec'd From                                                                   (Under)     Error
                                  Other       Other                   Payment       Payment
     No.   From TVG TVG Per                                                                      Payment     Code
                               Sources Per Sources Per                From FSA       Per OIG
            Per FSA    OIG                                                                      to Grower
                                  FSA          OIG
      A          B            C             D              E               F           G        H=F–G          I

17 Applications Contained Multiple Errors
     471        $8,448        $8,448             $0         $10,934       $18,294     $14,897       $3,397 1,5
     471        $7,089        $7,089             $0         $11,474       $12,274      $8,710       $3,564 1,5
     48       $146,043      $146,043             $0          $7,996       $32,804     $30,320       $2,484 1,5
     49        $50,798       $50,798             $0          $8,651        $8,974      $6,287       $2,687 1,5
     50        $32,441       $35,226             $0         $14,846       $12,361      $6,883       $5,478 1,3
     51        $42,174       $42,174        $10,400         $45,590       $44,613     $33,681      $10,932 1,5
     52       $195,403      $195,403             $0         $49,133       $55,109     $39,845      $15,264 1,5
     53         $2,627          $632         $3,840          $7,604        $1,379        $829         $550 1,4
     54        $10,507        $2,528        $15,360         $30,417        $5,514      $3,315       $2,199 1,4
     55        $82,744       $82,744             $0          $2,992       $54,277     $53,348         $929 1,5
     56        $27,053       $26,986         $7,200          $7,608        $3,836      $3,730         $106 4,5
     57        $75,404       $75,404             $0         $17,472       $22,176     $16,748       $5,428 1,5
     58       $383,792      $414,157             $0         $94,752      $155,246    $116,378      $38,868 1,2,3
     59        $16,300       $17,521         $7,124          $8,820        $5,173      $4,267         $906 1,4
     60        $28,904       $31,398        $21,371         $39,554       $12,036      $5,612       $6,424 1,4,5
     61       $707,412      $722,514           $625         $35,461      $237,355    $221,842      $15,513 1,3
     62         $7,258        $7,701           $384          $1,920        $3,301      $2,686         $615 3,4
     63        $29,031       $30,804         $1,536          $7,680       $13,203     $10,744       $2,459 3,4
                         Subtotal                                                                 $117,803
                         Total Underpayments                                                     ($19,461)
                         Total Overpayments                                                       $283,376
                         Net Overpayments2                                                        $263,915



ERROR DESCRIPTION
1.   Grower failed to report sales of contract production.
2.   Grower failed to report tree removal payments.
3.   Grower incorrectly changed the preprinted information on the application.
4.   The State office used incorrect income information.
5.   Grower failed to report indemnity payments.




1
    Grower No. 47 had two contracts, which were reported under different grower numbers.
2
    The figures obtained from FSA were rounded to the nearest whole number in columns B through H.


USDA/OIG-A/03099-4-SF                                                                                 Page 18
                                                                                          Page 1 of 2


EXHIBIT D – FSA MADE ERRORS WHEN CALCULATING PAYMENTS

            Payments          Payments                                     Over(Under)
 Grower                                      Final Payment Final Payment                    Error
          Rec'd From TVG    Rec'd From TVG                                 Payment to
  No.                                          From FSA       Per OIG                       Code
             Per FSA           Per OIG                                       Grower

   A             B                C               D             E              F              G

The State Office Incorrectly Adjusted Excess Tonnage when Calculating Losses for 46 Growers
   64              $115,472          $113,590     $12,118      $12,702          ($584)    6
   65               $31,047           $29,160      $2,660       $3,246          ($586)    6
   66              $343,856          $343,124     $62,916      $63,143          ($227)    6
   67              $246,735          $242,690     $31,924      $33,181        ($1,257)    6
   68               $95,189           $95,053     $12,483      $12,525            ($42)   6
   69               $19,497           $19,469      $2,557       $2,565             ($8)   6
   70               $61,160           $56,838      $5,755       $7,098        ($1,343)    6
   71               $14,276           $15,456      $1,138         $772            $366    6
   72               $10,239           $10,121        $540         $576            ($36)   6
   73               $40,955           $40,482      $2,159       $2,306          ($147)    6
   74               $25,275           $25,718      $2,875       $2,738            $137    6
   75              $101,101          $102,872     $11,501      $10,951            $550    6
   76                $4,247            $4,678        $237         $103            $134    6
   77               $39,357           $30,400        $513       $3,295        ($2,782)    6
   78               $11,051           $10,471      $1,011       $1,191          ($180)    6
   79               $44,203           $41,884      $4,045       $4,766          ($721)    6
   80               $81,160           $80,957     $11,507      $11,570            ($63)   6
   81               $46,238           $45,582      $5,758       $5,962          ($204)    6
   82              $136,515          $136,358     $20,419      $20,468            ($49)   6
   83               $65,726           $58,723      $6,291       $8,466        ($2,175)    6
   84               $14,864           $14,257      $2,186       $2,375          ($189)    6
   85              $157,853          $150,659     $20,281      $16,468          $3,813    6
   86               $14,422           $13,765      $1,591       $1,281            $309    6
   87                $1,973            $1,883        $333         $297              $36   6
   88                $9,822            $9,375        $885         $628            $257    6
   89              $311,195          $329,091     $41,431      $35,872          $5,559    6
   90               $35,681           $39,913      $2,668       $1,354          $1,314    6
   91              $243,222          $242,900     $33,595      $33,695          ($100)    6
   92               $16,789           $14,115      $1,661       $2,492          ($831)    6
   93               $12,076           $12,774        $582         $365            $217    6
   94               $13,776           $13,457      $2,814       $1,393          $1,421    6
   95               $71,870           $68,812     $10,245      $11,195          ($950)    6




USDA/OIG-A/03099-4-SF                                                                    Page 19
                                                                                                           Page 2 of 2



                Payments             Payments                                               Over(Under)
    Grower                                        Final Payment Final Payment                               Error
              Rec'd From TVG       Rec'd From TVG                                           Payment to
     No.                                            From FSA       Per OIG                                  Code
                 Per FSA              Per OIG                                                 Grower

      A              B                    C                  D                E                 F             G
     96                 $308,165          $297,023          $21,961           $25,422           ($3,461)       6
     97                  $62,087           $58,013           $6,481            $7,746           ($1,265)       6
     98                 $164,139          $164,051          $21,392           $21,419              ($27)       6
     99                 $181,180          $175,385          $18,197           $19,997           ($1,800)       6
     100                $125,881          $124,934          $15,719           $16,013             ($294)       6
     101                 $39,351           $38,102           $5,437            $5,825             ($388)       6
     102                 $24,607           $23,759           $2,489            $2,753             ($264)       6
     103                  $7,401            $7,086             $958            $1,056              ($98)       6
     104                 $33,145           $28,159           $3,601            $5,150           ($1,549)       6
     105                $100,922           $96,299           $9,882           $11,318           ($1,436)       6
     106                 $32,811           $31,549           $4,283            $4,675             ($392)       6
     107                $250,638          $249,971          $30,712           $30,919             ($207)       6
     108                 $97,931           $97,768          $13,007           $13,057              ($50)       6
     109                 $31,944           $31,490           $4,585            $4,726             ($141)       6
             Subtotal                                                                           ($9,733)

The State Office Used Incorrect Income Information on 5 Growers
  110              $47,902           $47,902            $0       $9,729                         ($9,729)       4
  111                    $0               $0      $10,090        $4,125                           $5,965       4
  112               $9,868            $9,868       $5,212        $5,023                             $189       4
  113              $39,474           $39,474      $20,848       $20,093                             $755       4
  114              $21,751           $21,165       $2,938        $3,121                           ($183)       4
          Subtotal                                                                              ($3,003)
             Underpayments                                                                     ($33,758)
             Overpayments                                                                       $21,022
                                   1
             Net Underpayments                                                                 ($12,736)


ERROR DESCRIPTION
4. The State office used incorrect income information.
6. The State office incorrectly adjusted excess tonnage when calculating growers’ losses.




1
    The figures obtained from FSA were rounded to the nearest whole number in columns B through F.


USDA/OIG-A/03099-4-SF                                                                                     Page 20
EXHIBIT E – GROWER APPLICATION




USDA/OIG-A/03099-4-SF            Page 21
                                                   Page 1 of 3


EXHIBIT F – FSA WRITTEN RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/03099-4-SF                             Page 22
                         Page 2 of 3




USDA/OIG-A/03099-4-SF   Page 23
                         Page 3 of 3




USDA/OIG-A/03099-4-SF   Page 24
